Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrant to the Stowe Township, Pennsylvania Police Department
GR-70-00-002December 13, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the U.S. Department of Justice, Office of Community Oriented Policing Services (COPS), to the Stowe Township, Police Department (Stowe).  Stowe was awarded a total of $288,530 in COPS grants to hire four full-time sworn police officers.

Stowe violated some grant conditions.


Stowe received reimbursement for unallowable costs including overtime, excess Federal Insurance Contribution Act taxes (FICA), excess unemployment insurance, and retirement benefits that were not actually paid.  As a result, we question the $8,503 that Stowe received as reimbursement for these unallowable expenditures.
	We were unable to determine whether the source of the local match was from funds not previously designated for law enforcement.
	Stowe was not adequately planning for the retention of the grant-funded positions. Therefore, we recommend that COPS withhold the remaining $215,555 in grant funds until Stowe submits an acceptable retention plan.
	Stowe did not submit the three most recent Financial Status Reports.  All of the reports that Stowe submitted were late.

These items are discussed in the Findings and Recommendations section of the report.  The Scope and Methodology we used to perform the audit appear in Appendix II.